U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

James Robert Miller v. United States of America,
S.Ct. No. 20-5840

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
22, 2020, and placed on the docket on September 29, 2020. The government’s response is due
on October 29, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 30, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5840
MILLER, JAMES ROBERT
USA

KATHERINE KIMBALL WINDSOR
LAW OFFICE OF KATHERINE KIMBALL
WINDSOR
65 N. RAYMOND AVE.
SUITE 320
PASADENA, CA 91103
213-663-9219
KATY@WINDSORLAW.US

